            TESTIMONY OF HAROLD W. GEISEL

              ACTING INSPECTOR GENERAL

    U.S. DEPARTMENT OF STATE AND THE BROADCASTING

                BOARD OF GOVERNORS

                     BEFORE THE

         COMMISSION ON WARTIME CONTRACTING

               IN IRAQ AND AFGHANISTAN

                   FEBRUARY 2, 2008




1
    Outline of Testimony



          1.   Introduction   ………………………………………….………3

          2.   Significant Contracting Audits and Reviews ……………...4

          3.   Other Significant Reviews ……………..…………..……….9

          4.   Oversight Priorities ……………………………………….….13

          5.   Ongoing OIG Reviews ……………………………………. 14

          6.   Planned OIG Reviews …………..……………………….….14

          7.   Status of Forces Agreement …….... ………….……………15

          8.   2007 Memorandum of Agreement (MOA)…....……………16

          9.   OIG Compliance Process …………..………………..……17

          10. Coordination and Cooperation………………………………18

          11. Future Resources   …………….……………………………19

          12. Recommendations …………….……..……………………...21




2
Mr. Chairman and Members of the Commission on Wartime Contracting in

Iraq and Afghanistan:

     I am honored to appear here today representing the Office of

Inspector General (OIG) of the U. S. Department of State and the

Broadcasting Board of Governors (BBG).

     OIG is pleased to work closely with the Commission on Wartime

Contracting (CWC) and your staff to help carry out your important mission.

     In our recent work, OIG sees some of the same problems with

contracting as we did 14 years ago, when I served my first term as Acting

Inspector General. A major difference, of course, is that the Department of

State is using many more contractors much more frequently in Iraq and

Afghanistan than it has done in the past.

     Our mission is to identify instances of waste, fraud, abuse, and

mismanagement wherever found, in war zones or elsewhere. In the past

year, this OIG has worked very hard to build its deployable oversight

capacity in conflict and post-conflict environments and today is much better

positioned to monitor the work of contractors than it was when the Iraq war

started in 2003.

     Your challenge is similar and equally daunting – to, among other

things, assess a number of factors related to wartime contracting, including


3
the extent of waste, fraud, abuse, and mismanagement of wartime

contracts. The CWC’s findings will be very instructive to all Inspectors

General.



Significant Contracting Audits and Reviews

      OIG consistently found a serious lack of resources to provide both

adequate day-to-day contract management and contractor oversight in Iraq

and Afghanistan. This observation is underscored by a number of

important OIG reviews.

      OIG’s Middle East Regional Office (MERO) is in the process

comprehensively reviewing Worldwide Personal Protective Services

(WPPS) contracts with Blackwater, DynCorp International, and Triple

Canopy in Iraq, with Blackwater in Afghanistan, and with Triple Canopy in

Jerusalem. Thus far, two reports have been issued.

      In December 2008, OIG issued its first WPPS report on the “Status of

the Secretary of State’s Panel on Personal Protective Services in Iraq

Report Recommendations.” This OIG report is an overview of actions taken

by the Department based on recommendations from the Secretary of

State’s Panel on Personal Protective Services in Iraq (Kennedy Report).




4
        This OIG review found that the Department of State and Embassy

Baghdad had improved the protection practices of the Department’s

security contractors, enhanced communication and coordination with

coalition military forces and the Government of Iraq, and increased

contractor accountability. The Department and Embassy Baghdad had

successfully completed 11 of the Panel’s recommendations, were in the

process of implementing four, and were awaiting actions by third parties to

complete an additional three. OIG reported that changes in security

practices resulted in a more professional security operation and the

curtailment of overly aggressive actions toward Iraqi civilians by movement

security teams.

        Despite these improvements, OIG found that the Department faced

numerous challenges, including:

    • Insufficient numbers of special agents to accompany all security

       movements or meet the Ambassador’s instructions for increased

       engagement with Iraqi officials

    • The unresolved status of private security contractors in light of the

       Status of Forces Agreement (SOFA) governing the relationship

       between Iraq and the U.S. military and contractors in Iraq

    • An Iraqi public opposed to the use of these contractors

5
    • The possibility that a primary security contractor would not receive a

      license to continue operating in Iraq

    • Curtailment and increased costs for private security contractors if

      immunity from Iraqi prosecution were to be lifted

        The OIG report recommended that the Bureau of Diplomatic Security

(DS) develop a workforce plan to meet the current high operational tempo

and expected increase in requirements for Personal Protective Services

(PPS) resulting from the anticipated drawdown of the U.S. military in Iraq.

OIG further recommended that DS expeditiously acquire dedicated tactical

communication expertise to assist Embassy Baghdad in evaluating and

fielding a tactical radio communication system.

        The second report in the WPPS review, a “Review of Diplomatic

Security’s Management of Personal Protective Services in Iraq,” was

issued in January 2009. This review looked at the studies and needs

assessments conducted by DS to determine PPS requirements, the factors

that led to three separate PPS contractors in Iraq, and the mechanisms in

place to ensure that PPS assets were used effectively and efficiently.

        OIG found that DS was highly effective in ensuring the safety of chief

of mission personnel in Iraq. However, OIG also found that DS did not have

a strong control environment to ensure the WPPS contract was effectively

6
managed, assets were safeguarded, and laws and regulations were in

compliance. This problem was due to:

    • Frequent changes in management personnel and staff turnover

    • Rapid expansion of activities

    • Understaffing and drastic increase in workload, as well as staff

      difficulties in handling operational workload

    • Lack of operating policies and procedures

    • Staff frustrated by information requests, and an inability to provide

      requested information

        OIG’s analysis of personnel rosters (muster sheets) revealed the

three WPPS contractors had recurring difficulties maintaining required

staffing for critical labor categories. There was no attempt to ensure the

accuracy of muster sheets at their origin in the field and, therefore, no

means to verify personnel labor costs. Embassy Baghdad’s use of

contractors to manage and control government-furnished equipment may

have violated Federal Acquisition Regulation policy that contractors shall

not be used for the performance of “inherently governmental” functions.

The security footprint of the three WPPS contractors in Iraq is a legacy of

the Coalition Provisional Authority (CPA) period. There were no post-CPA

assessments or analysis to determine the PPS requirements in Iraq. OIG

7
noted several instances that raised concerns over the efficient deployment

of contractor security assets.

        The January 2009 report on DS management of WPPS made the

following recommendations:

    • DS should develop a workforce plan for the High Threat Protection

      Division to fill staff vacancies and encourage retention of staff

      responsible for administering the WPPS contract.

    • The Bureau of Administration should develop a workforce plan for the

      Office of Acquisition Management to ensure sufficient staff to oversee

      the WPPS contract, including assigning a dedicated contracting officer

      to Embassy Baghdad to provide proper oversight of WPPS contractor

      activities.

    • DS should assign dedicated contracting officer representatives to

      Embassy Baghdad and Regional Embassy Offices to provide proper

      oversight of WPPS contractor activities.

    • DS should develop and publish standards, policies, and procedures for

      managing private security contractors in the Foreign Affairs Handbook,

      similar to those created for Local Guard and Residential Security

      programs.




8
    • Embassy Baghdad should assign a U.S. Government direct-hire

       employee to supervise and approve the work completed by the

       Regional Security Officer’s Logistics Office.

    • DS should assess PPS requirements in Iraq to determine the number

       of security personnel to employ, where they should be deployed, and

       the level and manner of protection given the threat in particular

       locations.

        It should be noted that, following this review, DS replaced the

Regional Security Office logistics officer, who was a contractor, with a full-

time government employee.




Other Significant Reviews

        OIG issued reports on two other reviews of contract management,

    both of which underscore the importance of issues related to contractors.

    These reports were the “Inspection of the Bureau of International

    Narcotics and Law Enforcement Affairs (INL)” (ISP-I-05-14, July 2005)

    and a review of the Office of the Procurement Executive found in

    “Inspection of the Bureau of Administration’s Office of the Procurement

    Executive, Office of Acquisitions Management, and Office of Small and

    Disadvantaged Business Utilization” (ISP-I-07-12, December 2006).

9
 Although the latter was not focused on wartime contracting, it is relevant

 for a number of reasons.

      The 2005 INL review found that, because of the growth of INL

programs predominantly in Iraq and South Asia, the Bureau was at that

time, “an embattled entity, facing the need to address the bureau's

overtaxed resources and organizational weaknesses, while drastically

reordering its priorities to deal with burgeoning high priority Iraq and

Afghanistan programs.”

      From FY 2003 to FY 2004, overall INL program funding nearly

doubled to $2.2 billion. The report recommended that INL move promptly to

restructure in order to deal effectively with its policy-sensitive Iraq and

Afghanistan programs. As an interim step, OIG recommended that INL

immediately establish individual working groups for the management of INL

programs in Iraq and Afghanistan. OIG also recommended that INL

proceed with a long-delayed bureau reorganization and needed personnel

increases to relieve the evident strains within the bureau caused by long

term inadequate staffing and the bureau's pressing new demands.

      In addition, in 2007, OIG’s Office of Audits completed an audit

(AUD/FM-07-41) of the Jordan International Police Training Center that


10
concluded INL could not effectively review and approve DynCorp

International’s invoices. This issue hampered INL’s ability to assure that

work was completed satisfactorily. In May 2007, INL supplied OIG with

information that improvements had been made to its invoicing and approval

process.

     In its 2005 review of the Office of the Procurement Executive (OPE),

OIG found that total contract spending had grown dramatically in recent

years—from $1.87 billion in FY 2000 to $5.85 billion in FY 2005, an

increase of 213 percent. During the same five-year period, the

Department’s professional contract staffing increased by only 16 percent —

going from 130 to 150 full-time government employees. As a result, the

procurement function in the Department was approaching a crisis situation.

     Given the need for prompt action to deal with conflict and post-conflict

programs, OIG found there was great pressure placed on the Office of

Acquisitions Management (AQM) to award contracts expeditiously. For

example, among other pressures, AQM had to award contracts despite late

receipt of requirements from the Bureau of Overseas Buildings Operations

(OBO). The amount of money involved—$2.4 billion in FY 2005—called for

care and prudence in the contracting process.



11
      Lastly, the Department’s management of contracting officer

representatives (CORs) was persistently weak, despite a number of

improvements made by OPE and AQM in response to previous OIG

recommendations.

      OIG reported that changes were underway to further enhance the

tracking, training, and supervision of CORs, but the cooperation of senior

managers throughout the Department would be necessary for full

implementation of these improvements. This Department-wide condition

had the highest potential to harm the post-conflict contract management

process.

      In 2007, OIG’s Office of Audits also issued an audit report,

“Accounting for Government-Owned Personal Property Held by Selected

Contractors in Afghanistan” (AUD/IQO-07-48), which concluded that 21

percent of $133 million in charges reviewed had inadequate documentation

on property furnished to or purchased by contractors in Afghanistan. The

Department agreed with all of the recommendations, which focused on

civilian police training, poppy elimination, personal protective services, and

humanitarian demining. The equipment included vehicles, weapons,

generators, information technology, and communications equipment.



12
Oversight Priorities

       The current areas of concern and priorities for future reviews in Iraq

and Afghanistan are:

     • WPPS contract performance, management, and administration by DS

     • OBO contracts for construction of housing and office space and for

       transition of Regional Embassy Offices to consulates

     • Transition planning mechanisms and key issues—security, logistical

       support (Logistics Civil Augmentation Program or LOGCAP),

       transportation, and costs associated with increased Department roles

       and responsibilities following a military drawdown in Iraq

     • Iraq reconstruction

     • Assistance for Iraq in developing oil resources

     • Reconstruction Opportunity Zones in Afghanistan

        The ability of OIG to conduct these reviews will be based on staffing

levels and funding priorities from Congress. Currently, Congress and the

Department are strongly interested in the WPPS program, but OIG will

remain flexible in response to changing conditions and future priorities

established by the new Administration.

13
Ongoing OIG Reviews

     • 2009 performance audits of WPPS in Iraq and Jerusalem

     • OIG Office of Audits performance audit of the New Embassy

       Compound in Baghdad (to be published in Summer 2009)

     • State OIG/Special Inspector General for Iraq Reconstruction (SIGIR)

       audit of Blackwater operations in Iraq (to be issued in Summer 2009)



Planned OIG Reviews

     • Diplomacy, consular, provincial, and security programs in Iraq

       (Embassy Baghdad inspection begins February 2009)

     • 2009 performance audit of WPPS (Blackwater) in Afghanistan

     • 2009 WPPS capping report, which will summarize findings and

       conclusions of the Department’s management of private security

       contractor program

     • Audits of logistics support, cost, and effectiveness, including reviews

       of LOGCAP and logistical support to the Provincial Reconstruction

       Teams



14
     • Reviews of logistical support related to the Transition Plan and the

       Regional Embassy Offices

       In its review of WPPS in Afghanistan, OIG will look closely at how the

       lessons learned in Iraq have been, and will be, applied in

       Afghanistan. A primary objective of the performance audit of

       Blackwater in Afghanistan is to determine whether best practices

       learned from the Department’s Kennedy Report recommendations

       regarding Iraq are applicable to the private security program in

       Afghanistan.



Status of Forces Agreement


       OIG found two provisions of the new Status of Forces Agreement

could potentially have a significant impact on WPPS: the lack of immunity

for U.S. Government WPPS contractors from Iraqi law, and the Iraqi

Government licenses required to permit these private security contractors

to operate in Iraq. These two provisions could result in an inability to attract

and retain sufficient personnel, and may also lead to some prime WPPS

contractors not being licensed to operate in Iraq. As a timely example of

the latter concern, on January 23, 2009, the Department of State confirmed

that Iraq’s Ministry of Interior notified Embassy Baghdad that the Iraqi

15
Government would not grant a private security contractor operating license

to Blackwater.



2007 Memorandum of Agreement (MOA)

      The Department of State and the Department of Defense entered into

an MOA on December 5, 2007, regarding U.S. Government private security

contractors. The MOA established clearly defined authority and

responsibility for the accountability and operations of private security

contractors in Iraq, including revised “Rules of Force” provisions. The

Department of State updated the Iraq Mission Firearms Policy incorporating

these revised rules regarding the use of force, and this policy went into

effect on February 2, 2008. GAO’s report to Congress in July 2008 on

“Rebuilding Iraq” concluded that the revised rules sufficiently tightened the

rules for the use of deadly force by private security contractors. However,

challenges remain. The Department of State is currently responsible for

the safety and security of U.S. Government civilians, and as the drawdown

of military forces begins, the number of civilian U.S. Government personnel

in Iraq most likely will increase. Additional resources will be needed for

added security operations, as well as to adequately monitor and oversee




16
the potentially expanded Department of State use of private security

contractors in Iraq.



OIG Compliance Process

      The compliance process begins when OIG enters a recommendation

into its Compliance Analysis Tracking System, which tracks Department

actions to comply with the recommendations. Periodic status reminders

and non-compliance notices are issued to the responsible bureau or office

until final action is completed and the recommendations can be closed.

      Compliance verification is one area of OIG operations that has

suffered from a lack of resources. Currently, much of OIG’s compliance

effort is conducted with rehired annuitant staff, or by full-time staff on an “as

time permits” basis. Although we are unable to provide the degree of

follow-up we would like to, overall I am reasonably satisfied with the

Department’s responsiveness in dealing with our recommendations.

      OIG’s two WPPS reports were released over the last two months, so

there has not been sufficient time to formally assess whether actions have

been taken or not taken by the Department. However, we know that some

recommendations have been already implemented. OIG will begin its

review of the implementation of both sets of recommendations in February


17
2009 and is optimistic that these recommendations will be promptly

addressed.

      A House committee recently released a report noting that State OIG,

over an 8-year period, produced the largest number of recommendations in

the government. Since 2001, 89.1 percent of these recommendations have

been closed in our compliance system.



Coordination and Cooperation

      OIG is satisfied with the level of communication and coordination

among the Department of State, the Department of Defense, and USAID.

All three agencies hold regular discussions, and so far as we are aware,

the agencies’ coordination appears to have been successful in avoiding

duplication of effort. OIG has also consistently extended offers to

coordinate and deconflict oversight projects to the Special Inspector

General for Iraq Reconstruction (SIGIR) and the Special Inspector General

for Afghanistan Reconstruction (SIGAR).

      The Audit Plan signed by SIGIR, the Department of State, the

Department of Defense, and USAID in June 2008 has generally worked

well. However, even though Congress has supplied clarification, the

boundaries of audit responsibilities are not entirely clear, and there have


18
been instances of overlapping jurisdiction between the temporary special

Inspectors General (SIGIR and SIGAR) and the permanent Inspectors

General.

      The Assistant Inspector General for the Middle East Region has

reported to me on numerous occasions that the Southwest Asia Planning

Group meets regularly and, by and large, the group members are working

well together.



Future Resources

      The CWC asked whether OIG has enough funding to audit wartime

contracting. For FY 2009, the answer is yes, due to supplemental funding

OIG received in 2008. If the Department and Congress continue to provide

the necessary base-year funding, we can continue to increase our ability to

provide sufficient oversight in conflict and post-conflict regions. We have

been informed that in 2009 we may receive $40 million in annual base-year

funding. If this information is correct, the funding would be a significant and

positive change, considering that State OIG’s budget has averaged around

$30 million between 1994 and 2007.

      Today, OIG has built new confidence among key leaders in the

Department, the BBG, and Congress – confidence in the value of oversight

19
and in OIG’s ability to deliver more useful oversight into high-cost, high-risk

programs by basing its Middle East Regional Office (MERO) regionally

overseas so that personnel can flow more easily to conflict areas. OIG

opened its MERO headquarters in Amman, Jordan, in January 2008, and

opened a satellite office in Baghdad in November 2008. OIG will open

additional satellite offices in Cairo and Kabul this spring. With these

strategically placed platforms, OIG is sending oversight personnel --

auditors, analysts, and investigators -- to troubled areas in the region to

monitor these high-cost, high-risk Department programs.

      In June 2008, OIG’s MERO in Amman issued two very important

reviews on the Iraqi Special Immigrant Visa Program and the Iraqi Refugee

Admission Program, both of which garnered strong interest by lawmakers

crafting new legislation on these important programs. MERO now provides

real-time information on matters affecting Department programs in critical

crisis and post-conflict areas, such as Iraq, Afghanistan, Pakistan, and 27

other countries in the region.

      I have been highly encouraged by the involvement and coordination

of our Office of Investigations with MERO, and the by staff increases in

OIG’s Office of Investigations. In October 2007, this office was barely

functioning and today it has new staff, new leadership, and new plans for
20
investigations overseas into a myriad of alleged crimes, including fraud,

financial crimes, control of sensitive technologies, and contractor-related

wrongdoing.

        With Congress’ continued support we are optimistic that State OIG

will be able to provide effective oversight of Department programs and

contracting in Iraq and Afghanistan. In addition, three other permanent

U.S. Government Inspectors General, as well as SIGIR and SIGAR, also

have statutorily-assigned responsibilities in both the Middle East and South

Asia.



Recommendations

OIG recommends that the CWC:

        1) Establish a standard mechanism to provide sufficient funding for

both contract management and contract oversight when certain wartime

conditions exist.

        2) Follow the lead established in the FY 2009 Department of Defense

Authorization Act, which calls for government-wide standards to help

managers determine inherently governmental and non-governmental

functions. This information could then be used to determine the size of the

U.S. Government employee work force and the need for contractors.

21
      Finally, while these are good beginnings, OIG notes that

reconstruction funding made up only 10 -15% of the overall U.S.

investment in Iraq since 2002. Compare this figure to the oversight

investment in Iraq of SIGIR, which in 2008 alone had a budget of $34

million to oversee a portion of the U.S. investment in Iraq. At the same

time, State OIG’s budget of $34 million covered all Department programs

worldwide, including Iraq and Afghanistan. Clearly, the investment in

oversight can fall out of balance for the long term, if the permanent U.S.

Government Inspectors General are not adequately resourced to meet the

challenges of conflict and post-conflict scenarios.

      Thank you for the opportunity to appear before you today. I would be

pleased to respond to any of your questions.




22
